No.

20 - £15
In The

SUPREME COURT OF THE UNITED STATES

Supreme Court, U S
FILED

AUG 2 7 2020
Barrington C. Boyd Pro Se — PETITIONER

OfggE OF THE Cl faic

VS.

Teachers Insurance And Annuity Association of America; TIAA-CREF
Individual & Institutional Services LLC — RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO The United States Court of Appeals For The
Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Barrington C Boyd
628 Maple Valley
Weddington, NC 28104
704-708-9077
Bontsgnikl6@hotmail.com

Received
‘ 2 2020
fuPREEM°EFcnggjg<

QUESTIOWN(S) PRESENTED

Is it a matter of national interest and importance that large
financial services employers should not be able to skate around
discrimination laws, EEOC regulations and federal discrimination
laws while unnecessarily and viciously destroying US workers
lives when issues of discrimination are raised?
The questions posed are'- (l)Whether TIAA one of the US largest
retirement plan provider, a fortune 100 corporation with over
17,000 employees illegally weaponized FINRA (Financial Industry
Regulatory Authority) FORM U5 (to effect violation of Title VII of
the Civil Rights Acts of 1967) - as a blacklisting tool against
former discriminated against employee- a reporting repository for
registered financial services employees? FINRA FORM U5
contains accumulated former employer(s) remarks - corrections,
modifications, employment history, regulatory actions, investment
related licensing information, arbitration, and complaints?
(2) Given that TIAA is a expert employer in completing FINRA
Form U5 — did TIAA intend to file negative remarks in breach of
the contract they drafted?
Something needs to be done to stop the discriminatory injustice by
huge financial services firms use of FINRA as a blacklisting tool to
deny US workers employment opportunity in a field that the
workers spent years to be qualified to work in.
It is time for the court to act now and set a precedent about the
mistreatment of employees by these huge trillion-dollar firms. And
implement a process for expungement of illegal and discrimination
remarks in FINRA repository open to employees.
*

J
LIST OF PARTIES

The following was a plaintiff and is petitioner here: Barrington C. Boyd Pro Se.
Teachers Insurance And Annuity Association of America! TIAA-CREF Individual & Institutional
Services LLC defendants and the respondents here.

RELATED CASES
Mylan Labs Inc vs. Matkari, 7F.3d 1130,1134( 4th Cir. 1993).
Ashcroft vs. Iqbal, 556 U.S. 662,679 (2009).
E. Shore Mkts., Inc v. J.D. Assocs. LLP, 213 F.3d 175, 180 (4th Cir. 2000).
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
Am. Chiropractic Ass’n v. Trigon Healthcare Inc, 367 F. 3d 212, 234 (4th Cir. 2004).
Phillips v. LCI Int’l Inc, 190 F 3d 609, 618 (4th Cir. 1999).
Supplee v. Miller-Motte Bus. Coll. Inc, 768 S.E.2d 582, 590(N.C. Ct. App. 2015).
Branch V. High Rock Lake Realty Inc, 565 S.E.2d 248, 252(NC Ct. App. 2002).
Wake Med v. Surgical Care Affiliates, LLC 778 S.E.2d 308,312 (N.C. Ct. App. 2015).
Credit Union v. Butler & Burke, LLP 764 S.E. 2d 642,651 (N.C. Ct. App. 2014).
Long v. Long, 588 S.E.2d 691, 302 (N.C. Ct. App. 2003).
Charlotte Motor Speedway, In v. Tindall Corp., 672 S.E.2d 691, 302(N.C. Ct. App. 2009).
Templeton v. First Tenn. Bank, N.A., 424 F. App’x 249, 250 (4th Cir. 2011)
U.S. EEOC v Lockheed Martin Corp., 444 F. Supp. 2d 414, 417 (D. Md. 2006).
U.S. EEOC, 444 F. Supp. 2d at 417.
Price v. Thompson, 380 F.3d 209, 212 (4th Cir. 2004).
Burlington N. & Santa Fe Ry Co v. White, 548 U.S. 53, 68(2006).
Rochon v. Conzales, 438 F.3d 1211, 1219 (D.C. Cir 2006).
Robinson v. Shell Oil Co, 519 U.S. 337,346 (1997).
Harris v. Ann’s House of Nuts, No. 4U4cvl85, 2015 WL 390, 2017, at *4(E.D.N.C. June 24, 2015).
Alberts v. Wheeling Jesuit Univ., No. 5:09-cvl09 2011 WL 2132983, at *4(N.D. W. Va. May 25,
2011).
White, 548 U.S. at 68.
Foster v. Univ. of Maryland-Eastern Shore, 787 F3d 243, 25l(4th Cir. 2015).
Templeton, 424 F.App’x 251.
Price, 380 F.3d at 213
Poor v. Hill, 138 (NC App. 19, 2000)
Hillmon Doctrine.
U.S. v Jenkins 579 F.2d 840, 843(4*h Circuit, 1978).

Jacobs v. N.C. Admin. Office of the Courts, 780 F .3d 562 n.l(4th Cir. 2015).
Defenders of Wildlife v. N.C. Dep’t of Transp., 762 F.3d 374, 392(4th Cir. 2014).
Wells Fargo Ins. Servs. USA Inc. v. Link, 827 S.Ed 458, 472(N.C. 2019).
Hodgin v. Brighton, 674 S.E.2d 444, 446(N.C. Ct App. 2009).
Helms v. Schultze, 588 S.E.2d 524, 527 (N.C. Ct App. 2003).
Myers v. Myers, 714 S.E.2d 194, 198(N.C. Ct. App. 2011)
Transcript of Oral Argument, Hearing in US District Court Western District NC 3H7-cv-0024
March 27th, 2019.

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

4-7

REASONS FOR GRANTING THE WRIT

r7-

CONCLUSION

7

INDEX TO APPENDICES

APPENDIX A - Order from The United States Court Of Appeals For the Fourth Circuit.

APPENDIX B - Order from The United States District Court For The Western District Of North Carolina
Charlotte Division 3:17-CV-00224-GCM - with transcript of hearing attached.

APPENDIX C - Order from The United States District Court For The Western District Of North Carolina
Charlotte Division 3:17-CV-00224-GCM. Order dated September 20th, 2017.

TABLE OF AUTHORITIES CITED

CASES

STATUTES AND RULES

PAGE NUMBER

I

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the United States Court of Appeals For The Fourth Circuit appears at
Appendix A to the petition and is unpublished
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or, [X ] is
unpublished.
The opinion of the United States district court appears at Appendix B to the petition and
is unpublished - transcript of motion hearing attached;
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or, [X ] is
unpublished.
[ X] The opinion of the United States district court appears at Appendix C to the petition
and attached;

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
petition and is
at ! or,
[ ] reported
[ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.
The opinion
appears at
[ ] reported at

of the
court
Appendix

to the petition and is
> or,

to the

Z[ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.
1.
JURISDICTION
[ x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was!
May 29, 2020.
[x ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:, and a copy of the order denying rehearing appears at
Appendix
.
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in Application No.
to and including (date) on
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
that decision appears at Appendix_______

.. A copy of

[ ] A timely petition for rehearing was thereafter denied on the following date:
-----------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on
(date) in
Application No.---- A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A claim for retaliation in violation of Title VII of the Civil Right Act of 1964 and breach of
contract.

STATEMENT OF THE CASE
Barrington Boyd an African-American male is a licensed investment advisor with series 7 and 66
qualifications. Barrington began working for TIAA around June 2005 and work for nearly a
decade as a great Client Relationship Consultant and Wealth Management Advisor.
On March 15, 2005 TIAA issued petitioner a letter terminating his employment. On or about
March 24, 2015 TIAA submitted to the Financial Industry Regulatory Authority (FINRA) a
Uniform Termination Notice for Securities Industry Registration (Form U5). In the space
provided for Termination Explanation, respondent stated:
Did not meet internal performance expectations for position. No violation of industry rules, no
customer harm, not securities related.
Petitioner filed two charges of discrimination with the EEOC asserting that defendant had
discriminated against him on the basis of race ( 2014 and 2015)
On or about June 16th; 2015 petitioner and TIAA participated in a mediation with EEOC and
entered into a mediation agreement resolving petitioner’s 2014 and 2015 EEOC charges.
On or about June 25th, 2015 petitioner executed a second agreement with TIAA (drafted by
TIAA) entitled Separation Agreement and Release in Full (Separation Agreement):
Paragraph 3 of the Separation Agreement provided, in full:
TIAA will file with the appropriate depository within the Financial
Industry Regulatory Authority ("FINRA") the amended explanation
of "discharged: disagreement regarding internal policy requirements
for position. No violation of industry rules, no customer harm, not
securities related" on your "Uniform Termination Notice for
Securities Industry Registration" or "U_5 To be clear, you agree not
to challenge in any way the accuracy and/or proprietary [sic] of the
U'5 explanation above that TIAA will file with FINRA and to release
TIAA pursuant to Paragraphs 11 and 12 below, from any claim
related to the filing or content of that U_5 amendment.
Additionally, Paragraph 4 of the Separation Agreement provided that TIAA would not provide a
letter of recommendation or personal reference for Plaintiff, instead providing him with contact
information for TIAA's employment verification system. Paragraph 4 further provided that, in
response to any inquiry about his separation from TIAA, Plaintiff was to "respond only that 'you
have left TIAA on amicable terms to pursue new opportunities,' without further elaboration."
Paragraph 11 of the Separation Agreement, which outlined the claims released by Plaintiff,
expressly stated, "This release of claims does not extend to your contractual right to enforce
the terms of this Agreement or to any claims that may not be lawfully released."
On or about July 22, 2015, TIAA submitted a revised U‘5 to FINRA with regard to Plaintiffs
termination. In the space provided for "Termination Explanation," Defendant stated:

■

S'

"DISAGREEMENT REGARDING INTERNAL POLICY REQUIREMENTS FOR POSITION. NO
VIOLATION OF INDUSTRY RULES, NO CUSTOMER HARM, NOT SECURITIES RELATED."
Immediately below the Termination Explanation, in the space provided for an explanation
for amendment, Defendant stated:
THE FAILURE TO MEET INTERNAL POLICY EXPECTATIONS
PRECIPITATED A CONVERSATION WITH THE EMPLOYEE AS
TO WHAT THOSE EXPECTATIONS WERE AND SHOULD BE.
ULTIMATELY, IT WAS THE INABILITY TO REACH AN
UNDERSTANDING AS TO WHAT THE JOB EXPECTATIONS
WERE THAT RESULTED IN THE SEPARATION.

TIAA's explanation for the amendment was neither accurate nor consistent with the language in
Paragraph 3 of the Separation Agreement.
Through counsel, Plaintiff objected to TIAA's explanation, which violated the terms of the
Separation Agreement.
TIAA initially refused to remedy its breach, but finally submitted another revised U-5 to
FINRA on or about December 7, 2015. The revised U-5 retained the agreed-upon language
as the "Termination Explanation," but changed the explanation for the amendment to
state: "Amended to accurately reflect the intent of the previous amendment."
Following his termination, Plaintiff has applied for numerous positions in the securities industry.
Several of Plaintiff s prospective employers, noting the amended language in the various U-5 forms
submitted to FINRA by TIAA, demanded that Plaintiff provide them with the contact information
of his former supervisor, rather than TIAA's employment verification service.
Upon information and belief, several prospective employers contacted Plaintiffs former supervisor
for further information regarding Plaintiffs employment history with TIAA.
Upon information and belief, Plaintiffs former supervisor provided negative feedback to these
prospective employers regarding Plaintiffs performance.
Plaintiff was informed by several prospective employers that he did was not hired because of
negative referrals provided by his former supervisor at TIAA.
On or about December 27, 2016, Plaintiff filed a Charge of Discrimination with the Equal
Employment Opportunity Commission ("EEOC"), asserting a claim for retaliation in violation of
Title VII of the Civil Rights Act of 1964.
On or about January 23, 2017 the EEOC issued Plaintiff a Right to Sue Letter, which Plaintiff
received on or about February 6, 2017. Plaintiff timely files his Complaint within 90 days after
receiving the Right to Sue Letter.
On or about June 26, 2015, the parties entered into the Separation Agreement, a valid and
enforceable contract.

£

Paragraph 3 of the Separation Agreement provided, in full:
TIAA will file with the appropriate depository within the Financial
Industry Regulatory Authority ("FINRA") the amended explanation
of "discharged: disagreement regarding internal policy requirements
for position. No violation of industry rules, no customer harm, not
securities related" on your "Uniform Termination Notice for
Securities Industry Registration" or "U-5." To be clear, you agree not
to challenge in any way the accuracy and/or proprietary [sic] of the
U’5 explanation above that TIAA will file with FINRA and to release
TIAA pursuant to

Paragraphs 1 1 and 12 below, from any claim related to the filing or content of that U'5
amendment.
Additionally, Paragraph 4 of the Separation Agreement provided that TIAA would not provide a
letter of recommendation or personal reference for Plaintiff, instead providing him with contact
information for TIAA's employment verification system. Paragraph 4 further provided that, in
response to any inquiry about his separation from TIAA, Plaintiff was to "respond only that 'you
have left TIAA on amicable terms to pursue new opportunities,' without further elaboration."
TIAA has breached Paragraphs 3 and 4 of the Separation Agreement by filing a U_5 amendment
that was both false and inconsistent with the language agreed to in Paragraph 3 of the Separation
Agreement and providing negative references to Plaintiffs prospective employers.
As a direct and proximate result of TIAA's breach, Plaintiff has suffered economic damages,
including but not limited to the loss of prospective jobs.

SECOND CAUSE OF ACTION (Retaliation in violation of Title VII of the Civil Rights Act of
1964 — Both Defendants)
Plaintiff restates and realleges the foregoing paragraphs as if fully set forth herein.
Plaintiff engaged in a protected activity by filing EEOC Charges against Defendant in 2014 and
2015, alleging discrimination on the basis of his race.
Following the resolution of the 2014 and 2015 EEOC Charges through the Separation Agreement,
TIAA took adverse employment actions against TIAA by interfering with his job search, including
by falsely amending his U-5 and by providing negative referrals to prospective employers.
Defendants' retaliatory actions were motivated by Plaintiffs engagement in activities protected by
Title VII of the Civil Rights Act of 1964.
Upon information and belief, TIAA acted with malice and/or with reckless indifference to Plaintiffs
federally protected rights.

7

As a direct and proximate result of Defendants' violations of Title VII of the Civil Rights Act of
1964, Plaintiff has been damaged.

REASONS FOR GRANTING THE PETITION
Given the confusion and that The US District court was conflicted in its opinion when it recognized
that a plausible contract breach and retaliation was in effect under its order dated September 20,
2017.
TheUS District court during the court hearing of March 27, 2019 erred in stating that TIAA did
not breach the contract and that Plaintiff had gotten what was bargained for. TIAA initially
refused to do what was bargained for under their contract. Petitioner request this court to clarify
said.
The US 4th Circuit court doubled down on the error. The cases cited by the 4th Circuit does not
address the case at hand and there is no evidence that FINRA required TIAA to add an
explanation. TIAA had already negotiated what language to add in the FINRA Form U5 under the
terms of their contract negotiations with plaintiff and EEOC. The court is giving TIAA contract
options not bargained for in the contract TIAA drafted and refused to honor. TIAA did not use a
none_egregious statement or remark — TIAA chose to use the very language they negotiated to
change!
Both the US District court and the US 4th Circuit erred in not considering the preponderance of
evidence submitted by Plaintiff on the issue of the retaliation and contract breach and is giving to
TIAA options not bargained for under the contract.
The lower courts erred in over looking nor addressing that TIAA is an expert employer in
completing FINRA Form U5 — which does not require an explanation for termination. So; it is clear
that TIAA intended from the get go to use the FINRA Form U5 as a weapon against the plaintiff
with its many amendments used to block the Plaintiff from gaining employment. Why did TIAA
lie in its remarks on the Form U5?
For years TIAA has been damaging US employees with its vicious vindictive use of the FINRA
Form U5 and has used is to sabotage the US work force and economy. TIAA says it serves the
greater good — so why could they not do the right thing here? Why should the lower courts allow
TIAA be to not honor the terms of their contract?

Now more than ever the US work force is under attack by trillion-dollar firms with no
accountability. The court needs to send a message and grant the writ holding TIAA accountable.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted
Barrington Boyd

Date: August 27, 2020

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Barrington Boyd — PETITIONER (Your Name)
VS.
Teachers Insurance And Annuity Association of America; TIAA-CREF Individual &
Institutional Services LLC — RESPONDENT(S)

